App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 19-40121
-----------------------------------------------------------------------

KENNETH RATLIFF,
Plaintiff - Appellant,
v.
ARANSAS COUNTY, TEXAS; COLBY SCUDDER,
Individually; RAYMOND SHEFFIELD, Individually,
Defendants - Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
-----------------------------------------------------------------------

(Filed Jan. 15, 2020)
Before JOLLY, SMITH, and COSTA, Circuit Judges.
E. GRADY JOLLY, Circuit Judge.
Kenneth Ratliff was shot five times when he refused to drop his weapon during an armed confrontation with two sheriff ’s deputies in Aransas County,
Texas. He survived and was later acquitted of criminal
assault. He proceeded to sue both deputies, as well as
the county, under 42 U.S.C. § 1983, alleging that the
deputies used unreasonable and excessive force in violation of the Fourth Amendment. The district court dismissed Ratliff ’s “official custom” and “failure to train”

App. 2
claims against Aransas County, finding that Ratliff ’s
pleadings failed plausibly to establish municipal liability under Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
694 (1978). Later, the court awarded summary judgment to the deputies, holding that Ratliff had failed
to rebut their qualified immunity defense. Ratliff appeals; we affirm.
I.
At approximately 3:00 a.m., on March 24, 2015,
Aransas County sheriff ’s deputies were dispatched to
a residence in Rockport, Texas, where Kenneth Ratliff
was living with Tanya Vannatter, his fiancée. The deputies, Colby Scudder and Raymond Sheffield, had been
requested by Vannatter, who reported in a 911 call that
Ratliff had beaten her earlier in the evening.
When the deputies arrived, Vannatter explained
that Ratliff had been drinking “all day and all night,”
and that, when she caught him sending text messages
to another woman, he went “ballistic.” More specifically, Vannatter said that Ratliff had thrown her to the
ground, punched her “everywhere,” and choked her
with such force that she thought she would die. She
was reluctant to press charges. But she did request
that the deputies ask Ratliff to leave home voluntarily.
As Vannatter and the deputies walked toward
Ratliff ’s front porch, Ratliff began shouting, “Get the
f*** off my property.” Ratliff was holding a loaded,
semi-automatic pistol, but he had not chambered a
round. The parties dispute whether the pistol was ever

App. 3
pointed at the deputies, but it is undisputed that the
deputies issued five orders to disarm moments before
the shooting. Ratliff responded, “shoot me . . . shoot
me” and “hey, you’re on my property.” Deputy Scudder
fired nine shots, and Ratliff sustained five gunshot
wounds. The whole encounter lasted about twenty-five
seconds. The deputies called an ambulance immediately, and paramedics arrived in time to tend to Ratliff,
who survived.
II.
Texas authorities charged Ratliff with aggravated
assault on a police officer, but he was later acquitted
by a jury. Ratliff then sued Deputy Scudder, Deputy
Sheffield, and Aransas County under 42 U.S.C. § 1983,
alleging that Deputy Scudder violated clearly established law by using deadly force, that Deputy Sheffield
violated clearly established law by failing to prevent
deadly force, and that Aransas County should be held
responsible because the deputies’ actions reflect the
county’s “customary practice[,] . . . policy or procedure.”1 The district court quickly dismissed Ratliff ’s
claim against the county, however, holding that Ratliff
had failed to plead sufficiently specific facts in support

1

Ratliff ’s complaint also contained a “malicious prosecution”
claim that the district court dismissed for failure to “tie [the allegedly malicious prosecution] to rights locatable in constitutional
text.” Cf. Castellano v. Fragozo, 352 F.3d 939, 945 (5th Cir. 2003)
(en banc). Ratliff does not challenge the dismissal of that claim on
appeal.

App. 4
of his “official custom” and “failure to train” theories of
Monell liability.
Then, on a motion for summary judgment, the district court also disposed of Ratliff ’s excessive force
claims against the deputies. The district court found
that Deputy’s Scudder’s use of deadly force was not
objectively unreasonable under the circumstances and
that Ratliff could not therefore meet his burden to rebut the defense of qualified immunity. That finding was
also fatal to Ratliff ’s claim against Deputy Sheffield.
Ratliff ’s entire suit was dismissed with prejudice. This
appeal followed.
III.
Ratliff raises three issues on appeal. He argues
that the district court erred: (1) by granting defendants’
motion to dismiss the Monell claim against Aransas
County, (2) by excluding testimony given by Ratliff in
his earlier criminal trial from the summary judgment
record in this civil action, and (3) by awarding summary judgment to the deputies on qualified immunity
grounds. We will address each issue in turn.
A.
We first consider Ratliff ’s challenge to the dismissal of his Monell claim. Ratliff argues that his pleadings satisfy both the familiar pleading standard
established by Bell Atl. Corp. v. Twombly, 550 U.S. 544
(2007), and a lower-than-normal pleading standard

App. 5
that, according to Ratliff, applies in the Monell context
under Leatherman v. Tarrant County Narcotics Intelligence & Coordination Unit, 507 U.S. 163 (1993). He can
prevail on neither count.
Initially, we note that the ordinary Twombly
pleading standard applies. It is, of course, true that
Leatherman, a pre-Twombly case, held that courts
must not apply a “heightened” pleading standard to
Monell claims. See id. at 168. Although Ratliff argues
otherwise, however, Leatherman did not require courts
to accept “generic or boilerplate” pleadings in this case
or in any other context. Indeed, our precedents make
clear that the Twombly standard applies to municipal
liability claims. See Peña v. City of Rio Grande City, 879
F.3d 613, 621–22 (5th Cir. 2018); Doe ex rel. Magee v.
Covington Cty. Sch. Dist. ex rel. Keys, 675 F.3d 849, 866
n.10 (5th Cir. 2012) (en banc). “To survive a motion to
dismiss,” Ratliff ’s Monell pleadings “must contain sufficient factual matter, accepted as true, to state a claim
to relief that is plausible on its face.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quotation omitted).
Reviewing de novo, we find no error in the district
court’s conclusion that Ratliff has failed to produce
sufficient pleadings. To state a Monell claim against
Aransas County, Ratliff was required to plead facts
that plausibly establish: “a policymaker; an official
policy; and a violation of constitutional rights whose
‘moving force’ is the policy or custom.” Piotrowski v.
City of Houston, 237 F.3d 567, 578 (5th Cir. 2001). The
district court held that Ratliff ’s complaint fails to establish an official custom or policy of excessive force

App. 6
because “[t]he only facts [that Ratliff ] allege[d] with
any specificity . . . relate to his shooting.” This assessment is correct.
“[P]lausibly to plead a practice ‘so persistent and
widespread as to practically have the force of law,’
[Ratliff ] must do more than describe the incident that
gave rise to his injury.” Peña, 879 F.3d at 622. Ratliff ’s
complaint states that “the assault, beating, and severe
injury to citizens, with little or no justification, is a persistent, widespread practice of County employees—
namely officers/deputies—that, although not authorized by officially adopted policy, is so common and well
settled as to constitute a custom that fairly represents
official county policy.” But this allegation does not
contain any specific facts. Instead, the complaint’s only
specific facts appear in the section laying out the
events that gave rise to this action. Thus, Ratliff ’s complaint clearly does not satisfy Twombly or Iqbal with
respect to the allegation that excessive force is an
Aransas County “custom.”
In addition to this theory of widespread and customary police brutality, Ratliff also alleged that “Defendant County is liable for [the] inadequate training
of police officers.” To prevail on a failure-to-train theory, Ratliff must plead facts plausibly establishing
“(1) that the municipality’s training procedures were
inadequate, (2) that the municipality was deliberately
indifferent in adopting its training policy, and (3) that
the inadequate training policy directly caused the violations in question.” Zarnow v. City of Wichita Falls,
614 F.3d 161, 170 (5th Cir. 2010).

App. 7
Ratliff has failed to carry this burden. Although
the district court focused on the first two failure-totrain elements, “we may affirm a district court’s [Federal Rule of Civil Procedure] 12(b)(6) dismissal on any
grounds raised below and supported by the record.”
Cuvillier v. Taylor, 503 F.3d 397, 401 (5th Cir. 2007).
Before the district court, the defendants argued that
Ratliff ’s failure-to-train pleadings were insufficient
with respect to the element of causation. It is clear
that this argument is meritorious. Ratliff ’s complaint
states in conclusory fashion that a “deficiency in training actually caused Defendants Scudder and Sheffield
to violate Plaintiff ’s constitutional rights.” But, absent
specific allegations supporting a plausible causation
inference, this legal conclusion does not state a claim
for relief and warrants dismissal under Rule 12(b)(6).
In short, we hold that the district court did not err
in dismissing Ratliff ’s claim against Aransas County
and, consequently, affirm its judgment dismissing the
county from this case.
B.
We next examine Ratliff ’s argument that the district court erred by excluding testimony that Ratliff
gave in his earlier criminal trial. He offered the testimony because of a failing memory and to rebut the
deputies’ qualified immunity defense in this § 1983
case. This previous testimony was attached, as part
of a forty-page exhibit, to Ratliff ’s response to the defendants’ summary judgment motion. The exhibit also

App. 8
included the testimony of other trial witnesses, including Vannatter and Deputy Scudder. The defendants
objected only to Ratliff ’s testimony, arguing that such
testimony was inadmissible hearsay to which no exception applied. The district court sustained the objection in a footnote but did not provide analysis or
reasoning.
On appeal, Ratliff does not explain why any of the
excluded testimony would have been relevant to the
issues raised at summary judgment. The testimony
could have evidenced only two plausibly-relevant facts:
(1) that Ratliff did not know who was approaching his
residence when he yelled, “Get the f*** off my property,” and (2) that Ratliff did not “raise [his] gun and
point it” at anyone, instead holding it “in [his] right
hand . . . down [at his] side” for the duration of his
encounter with the deputies.
“[A]n appeal of a summary judgment presenting
evidentiary issues raises two levels of inquiry.” Skotak
v. Tenneco Resins, Inc., 953 F.2d 909, 916 (5th Cir. 1992)
(quotation omitted). First, we review the district
court’s evidentiary rulings for abuse of discretion. Id.
Then, once the summary judgment record is “define[d],” we review de novo whether summary judgment was appropriately granted. Id. Indeed, here, we
cannot determine whether the district court’s summary judgment order was erroneous until we have
“defined” the summary judgment record, i.e., until we
have ruled on Ratliff ’s challenge to the exclusion of his
earlier criminal testimony. We thus address Ratliff ’s

App. 9
evidentiary arguments first, before turning to the merits of the district court’s summary judgment order.
We first entertain the defendants’ argument that
any error in excluding Ratliff ’s prior testimony was
harmless. If it were, we may assume that the exclusion
was erroneous and affirm nevertheless. Saratoga Res.,
Inc. v. Lexington Ins. Co., 642 F. App’x 359, 363 n.10
(5th Cir. 2016) (citing Matador Petroleum Corp. v.
St. Paul Surplus Lines Ins. Co., 174 F.3d 653 (5th Cir.
1999)). An error is harmless unless it affects “substantial rights.” Fed. R. Civ. P. 61. Ratliff, as the “party asserting . . . error,” bears the burden of proving such
prejudice. Ball v. LeBlanc, 792 F.3d 584, 591 (5th Cir.
2015).
But no prejudice has been shown. As we have already said, Ratliff ’s appellate brief does not even explain why the excluded testimony was relevant, let
alone demonstrate that its exclusion affected his “substantial rights.” Fed. R. Civ. P. 61. On the contrary, none
of the points, which we may assume from the excluded
testimony, was relevant to the district court’s decision
to enter summary judgment. Ratliff ’s testimony that
he did not know who was approaching his home on
the night of the shooting was irrelevant because, in
the context of qualified immunity, the district court
assessed the “reasonableness of [Deputy Scudder’s]
use of force . . . from the perspective of a reasonable
officer on the scene,” not from Ratliff ’s perspective.
Similarly, “the direction of [Ratliff ’s] gun” was immaterial to the district court’s analysis: the district court
reasoned that, irrespective of the gun’s direction,

App. 10
Deputy Scudder’s force was justified because “other
facts [had] establish[ed] that the suspect was a threat
to the officer[s],” which would include the fact that
Ratliff had been accused of a violent crime, the fact
that Ratliff was drunk and confrontational, and the
fact that Ratliff had ignored five orders to drop his
weapon.2
To sum up, we find that, even if the district court
erred by excluding testimony from Ratliff ’s criminal
trial, such error was harmless and the testimony’s
exclusion thus furnishes no basis for reversal.
C.
Finally, we consider the substantive merits of
Ratliff ’s appeal: whether the district court erred by
accepting the deputies’ qualified immunity defense
and awarding them summary judgment. “We review a
grant of summary judgment de novo, viewing all evidence in the light most favorable to the nonmoving
party and drawing all reasonable inferences in that
party’s favor.” Gonzalez v. Huerta, 826 F.3d 854, 856
(5th Cir. 2016) (quotation omitted).
Typically, to prevail on a motion for summary
judgment, the moving party must show “that there is
no genuine dispute as to any material fact.” Fed. R. Civ.
2

As we shall explain later, our cases support the district
court’s conclusion that, because Ratliff ignored five orders to disarm and engaged in threatening behavior, Deputy Scudder’s force
was not unreasonable even assuming that Ratliff never raised his
gun. See Garza v. Briones, 943 F.3d 740, 747 (5th Cir. 2019).

App. 11
P. 56(a). However, “[a] good-faith assertion of qualified
immunity alters the usual summary judgment burden
of proof, shifting it to the plaintiff to show that the defense is not available.” Orr v. Copeland, 844 F.3d 484,
490 (5th Cir. 2016) (quotation omitted).
So, here, Ratliff was required to adduce summary
judgment evidence indicating that the deputies’ actions “violate[d] clearly established . . . constitutional
rights of which a reasonable person would have
known.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(quotation omitted). To determine whether he has done
so, we will assume genuinely disputed facts in his favor
and engage in a two-pronged inquiry. “The first [prong]
asks whether the facts . . . show [that] the officer’s
conduct violated a [constitutional or statutory] right.”
Tolan v. Cotton, 572 U.S. 650, 655–56 (2014) (brackets
and ellipsis added). The second “asks whether the right
in question was ‘clearly established’ at the time of the
violation.” Id. at 656. For a right to be clearly established, “its contours must be sufficiently clear that a
reasonable official would understand that what he is
doing violates that right.” Hope v. Pelzer, 536 U.S. 730,
739 (2002) (quotation omitted).
The district court focused exclusively on the first
prong of the qualified immunity analysis, concluding
that the right at issue here, Ratliff ’s Fourth Amendment right to be free from unreasonable and excessive
force, was not violated when Deputy Scudder opened
fire. See Cleveland v. Bell, 938 F.3d 672, 676 (5th Cir.
2019) (“If the plaintiff fails at either step, [a] federal
court can grant qualified immunity by addressing

App. 12
either step or both of them.”). To establish a Fourth
Amendment violation in this context, Ratliff must establish “(1) [an] injury (2) which resulted directly and
only from a use of force that was clearly excessive, and
(3) the excessiveness of which was clearly unreasonable.” Freeman v. Gore, 483 F.3d 404, 416 (5th Cir. 2007).
Only the second and third of these elements are at issue. The question is whether Deputy Scudder’s resort
to deadly force was unreasonable and excessive when
the facts are viewed “from the perspective of a reasonable officer on the scene, rather than with the 20/20
vision of hindsight.” Graham v. Connor, 490 U.S. 386,
396 (1989).
Our recent opinion in Garza v. Briones speaks to
this question. Prior to Garza, our cases had clearly established that deadly force is not unreasonable when
an armed suspect has ignored multiple orders to disarm and has either pointed his weapon at a person or
used the weapon in such a manner as to make a threatening gesture. See, e.g., Ramirez v. Knoulton, 542 F.3d
124, 127–31 (5th Cir. 2008) (officer’s use of deadly force
was not a Fourth Amendment violation where an
armed suspect failed to comply with an order to drop
his weapon and then “brought his hands together in
front of his waist” as if “in preparation to aim [his gun]
at the officers”); see also Mace v. City of Palestine, 333
F.3d 621, 624–25 (5th Cir. 2003) (deadly force was not
objectively unreasonable when a suspect had “brandish[ed] an eighteen to twenty inch sword” and failed
to “respond to commands to drop his sword or to stop
moving toward [police] officers”); Ballard v. Burton,

App. 13
444 F.3d 391, 402–03 (5th Cir. 2006) (deadly force was
not unreasonable when a suspect had “refused to put
down his rifle, discharged the rifle into the air several
times while near the officers, and pointed it in the general direction of [the] officers,” even though the suspect
was not pointing his gun at anyone when he was shot).
Garza further adds to this line of cases. In Garza,
police officers received reports that a man was “sitting
alone in front of [a] truck stop’s bar playing with a pistol and holding what appeared to be a wine bottle and
a plastic bag.” 943 F.3d at 743. When the officers arrived, they discovered a suspect holding a gun, later
revealed to be a BB gun. Id. One of the officers ordered
the suspect to drop the weapon, but he “did not do so
and instead continued to move the firearm around in
different directions while making facial gestures.” Id.
“At that time, [the suspect] did not have his finger on
the trigger and was not pointing the gun at anyone.”
Id. Nevertheless, the suspect was later shot and killed.
Id. The administrator of the suspect’s estate sued the
officers under § 1983, alleging that the officers’ resort
to deadly force was unreasonable, excessive, and a violation of the Fourth Amendment. Id. at 744.
We rejected those allegations. We held that, when
“confronting an unpredictable man armed with a dangerous weapon,” law enforcement officers “may use deadly
force . . . without violating the Fourth Amendment.” Id.
at 745. The plaintiff in Garza argued, as Ratliff argues
now, that “a reasonable jury could find that [the suspect] never pointed his gun at the officers.” Id. at 746.
In support of this argument, the plaintiff relied on an

App. 14
affidavit from one of the officer-defendants, which
stated that the suspect “did not at any time point the
gun [at the] cops.” Id. at 747. Although we found that
video evidence had conclusively contradicted the affiant’s statement, we explained that this fact was not
essential to the outcome and further held that a “reasonable officer in any of the defendants’ shoes would
have believed that [the suspect] posed a serious threat
regardless of the direction [of his] gun.” Id.
Thus, in Garza, we found that it is not unreasonable for law enforcement officers to use deadly force
against an armed suspect, irrespective of the pointed
direction of that suspect’s weapon, when the suspect
has ignored orders to drop the weapon and has displayed erratic or aggressive behavior indicating that
he may pose an imminent threat. We can concede that,
here, unlike in Garza, the video evidence is inconclusive with respect to the direction of Ratliff ’s gun. Moreover, we are willing to accept that the gun’s direction
is genuinely disputed. But we cannot agree that the
pointed direction of Ratliff ’s gun is material in the context of these facts. Once Ratliff had ignored repeated
warnings to drop his weapon, the deputies here, like
the officers in Garza, had ample reason to fear for their
safety.3

3

The deputies had been told that Ratliff was drunk and
that he had nearly killed a person earlier in the night. When they
arrived on the scene, Ratliff dared the deputies to shoot him,
cursed at the deputies to get off his property, and ignored the deputies’ lawful commands to disarm. Although we accept that it is
genuinely disputed whether Ratliff knew that he was dealing

App. 15
Thus, we concur in the district court’s conclusion
that the deputies were entitled to qualified immunity.
Ratliff simply has not met his burden to establish a
Fourth Amendment violation in the form of unreasonable and excessive force, much less a violation that
every reasonable officer in Deputy Scudder’s position
would appreciate. See Hope, 536 U.S. at 739. The district court was correct to enter summary judgment in
favor of both deputies.4
IV.
In sum, we hold that the district court committed
no reversible error in its dismissal of Ratliff ’s Monell
claim against Aransas County, nor in its decision to
exclude testimony given in Ratliff ’s criminal trial, nor
in its decision to award summary judgment to both

with law enforcement, we again note that facts about Ratliff ’s
knowledge are beside the point. We examine the reasonableness
of Deputy Scudder’s force “from the perspective of a reasonable
officer on the scene.” Graham, 490 U.S. at 396. There is no genuine dispute about whether Deputy Scudder could reasonably have
believed that Ratliff knew he was confronting the police. After all,
the deputies were in uniform and, although it was dark, the area
was illuminated by lights from Deputy Sheffield’s squad car.
4
In his initial brief on appeal, Ratliff does not challenge the
district court’s dismissal of the claim against Deputy Sheffield,
other than to generally assert that summary judgment should not
have been awarded to “Appellees.” As such, he has waived on appeal any argument that the district court improperly dismissed
this claim. McKay v. Novartis Pharm. Corp., 751 F.3d 694, 702
n.6 (5th Cir. 2014) (issues not raised and argued in an appellant’s
initial brief are abandoned).

App. 16
deputies under the doctrine of qualified immunity. The
district court’s judgment is therefore, in all respects,
AFFIRMED.

App. 17
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 19-40121
-----------------------------------------------------------------------

D.C. Docket No. 2:17-CV-106
KENNETH RATLIFF,
Plaintiff - Appellant
v.
ARANSAS COUNTY, TEXAS; COLBY SCUDDER,
Individually; RAYMOND SHEFFIELD, Individually,
Defendants - Appellees
Appeal from the United States District Court
for the Southern District of Texas
Before JOLLY, SMITH, and COSTA, Circuit Judges.
JUDGMENT
(Filed Jan. 15, 2020)
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed.
IT IS FURTHER ORDERED that appellant pay to
appellees the costs on appeal to be taxed by the Clerk
of this Court.

App. 18
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
KENNETH RATLIFF,
Plaintiff,
VS.
ARANSAS COUNTY,
TEXAS, et al,
Defendants.

§
§
§
§
§
§
§
§

CIVIL ACTION NO.
2:17-CV-106

ORDER ON MOTION FOR
SUMMARY JUDGMENT
(Filed Jan. 9, 2019)
Plaintiff Kenneth Ratliff (Ratliff ) brings this action
against Defendants Colby Scudder (Deputy Scudder)
and Raymond Sheffield (Deputy Sheffield), deputies
with the Aransas County Sheriff ’s Department, alleging excessive force in violation of Ratliff ’s constitutional rights under 42 U.S.C. § 1983. Defendants have
moved for summary judgment based on qualified immunity.1 For the following reasons, the Court GRANTS
Defendant’s motion for summary judgment.

1

Defendants’ Motion for Summary Judgment Based on
Qualified Immunity (D.E. 30); Plaintiff ’s Response to Defendants’
Motion for Summary Judgment (D.E. 47); Defendants’ Responses
to Plaintiff ’s Objections to Defendants’ Summary Judgment Evidence (D.E. 49); Defendants’ Objections to Plaintiff ’s Summary
Judgment Evidence (D.E. 50); Plaintiff ’s Response to Defendants’
Objections to Plaintiff ’s Summary Judgment Evidence (D.E. 51);

App. 19
FACTS
This lawsuit arises from events that took place in
the early hours of March 24, 2015. Kenneth Ratliff had
spent the previous day fishing with friends and had a
few beers. He then stopped by a local bar for more
drinks before heading home around 2:00 a.m. During
the next hour, Ratliff got into a dispute with his girlfriend, Tanya Vannatter (Vannatter), ending in Ratliff
telling her to leave. As she stormed out of the house,
Vannatter told Ratliff, “you’re going to pay for this
motherf***er.” Fearing that Vannatter’s family may
come to confront him, Ratliff armed himself with a gun
and sat on his porch.
Vannatter ran to a neighbor’s house and called 911
because Ratliff “had been hitting” her. Deputy Scudder
and Deputy Sheffield reported to the scene separately
and talked to Vannatter outside the neighbor’s house.
Vannatter told the deputies that Ratliff had been
drinking all day and when he came home from the bar,
he “went f***in’ ballistic.” D.E. 30-1. She recounted
that Ratliff had pushed her around, placed her in a
headlock, and strangled her twice. As Ratliff strangled
her, Vannatter thought she was going to die. D.E. 30-1.
Deputy Scudder asked Vannatter if she wanted to
Defendants’ Reply to Plaintiff ’s Response to Defendants’ Objections to Plaintiff ’s Summary Judgment Evidence (D.E. 52). Defendant filed an objection to Plaintiff ’s summary judgment
evidence, claiming that Plaintiff ’s testimony in his criminal trial
is inadmissible hearsay. The Court SUSTAINS this objection. The
Court has also reviewed Plaintiff ’s objections to Defendants’ evidence listed in the response. The Court has not relied on this evidence so Plaintiff ’s objections are DENIED as moot.

App. 20
press charges against Ratliff. She said no, but she
wanted to check on her 11-year-old son, who was still
in the house with Ratliff. Deputy Scudder told her they
could ask Ratliff to leave long enough for Vannatter to
gather her belongings and her son. Accompanied by
Vannatter, Deputy Sheffield and Deputy Scudder began walking toward Ratliff ’s house.
It was pitch-dark as they approached Ratliff ’s
home. The street was poorly lit and Ratliff ’s porch light
was turned off. Deputy Scudder had parked his car
with the headlights shining away from Ratliff ’s house
and Deputy Sheffield had parked his car in front of the
neighbor’s house. D.E. 30-4, p. 1. The only light came
from Deputy Sheffield’s headlights, which barely
reached the end of Ratliff ’s driveway.
Ratliff testified in his deposition that he does not
remember the details of what happened next. He only
recalls hearing voices in his front yard and shouting
at them. The evidence, including the video footage,
reveals that as the deputies approached his house,
Ratliff yelled “get the f*** off my property!” Vannatter
instantly warned the deputies that Ratliff had a gun.2
D.E. 30-4, p. 2. Deputy Scudder immediately shouted
at Ratliff to drop it and Deputy Sheffield shouted at
Ratliff, “I’m going to f***ing shoot you, Motherf**ker!”
D.E. 30-1. Deputy Scudder saw Ratliff with a pistol and
drew his weapon, which had a flashlight, and pointed
2

Deputy Sheffield testified that he heard Vannatter say
“Watch out. He may have a gun.” D.E. 47-3, p. 24. Deputy Scudder
stated that Vannatter said Ratliff had a gun. D.E. 30-4, p. 2.

App. 21
it at Ratliff. The deputies continued to shout at Ratliff
to put his gun down and Ratliff yelled back, “Shoot
me!” The porch was about 90 feet from the deputies at
this point.
The deputies shouted at Ratliff five times to put
his weapon down. Deputy Scudder knew from training
that an armed person could raise a gun, point it at an
officer, and fire it before an officer has time to react.
D.E. 30-4, p. 2. As Ratliff yelled once again that it was
his property, Deputy Scudder fired his gun and shot
Ratliff until he fell to the ground.
Approximately 16 seconds elapsed between the
time Vannatter warned the deputies about Ratliff ’s
gun and the moment Deputy Scudder started shooting.
The deputies never announced themselves as the police to Ratliff during the encounter. Ratliff survived
and was charged with assaulting Vannatter, and
threatening Vannatter and the deputies with a deadly
weapon. Ratliff was later acquitted of the charges.
Ratliff sued Deputy Scudder, Deputy Sheffield,
and Aransas County for excessive force in violation of
his Fourth Amendment rights as well as for malicious
prosecution.3 Deputy Scudder and Deputy Sheffield
seek summary judgment on the Fourth Amendment
claims based on a qualified immunity defense.

3

Ratliff ’s claims against Aransas County and the claims of
malicious prosecution against Deputy Scudder and Deputy Sheffield were previously dismissed. D.E. 24.

App. 22
SUMMARY JUDGMENT STANDARD
Summary judgment is proper if there is no genuine dispute as to any material fact and the moving
party is entitled to judgment as a matter of law. Fed.
R. Civ. P. 56(a). The moving party bears the initial
burden of showing the absence of a genuine issue of
material fact. Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). “A fact issue is ‘material’ if its resolution
could affect the outcome of the action.” Poole v. City of
Shreveport, 691 F.3d 624, 627 (5th Cir. 2012) (citing
Hamilton v. Segue Software, Inc., 232 F.3d 473, 477 (5th
Cir. 2000)). The nonmoving party cannot avoid summary judgment by resting on mere conclusory allegations or denials in its pleadings. Smith v. Reg’l Transit
Auth., 827 F.3d 412, 417 (5th Cir. 2016) (internal quotation marks and citation omitted). However, the evidence must be viewed, and all justifiable inferences
drawn, in favor of the nonmoving party. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986).
The video recordings of Deputy Scudder and Deputy
Sheffield’s body cameras in this case affect the standard of review. A court can “assign greater weight, even
at the summary judgment stage, to the facts evident
from video recordings taken at the scene.” Newman v.
Guedry, 703 F.3d 757, 761 (5th Cir. 2012) (internal citation omitted). “When one party’s description of the
facts is discredited by the record, we need not take his
word for it but should view ‘the facts in the light depicted by the videotape.’ ” Id. (quoting Scott v. Harris,
550 U.S. 372, 380–81 (2007)).

App. 23
DISCUSSION
A plaintiff stating a claim under 42 U.S.C. § 1983
must demonstrate a violation of the Constitution or
federal law committed by someone acting under color
of state law. Bailey v. Preston, 702 F. App’x 210, 212
(5th Cir. 2017) (citing Atteberry v. Nocona Gen. Hosp.,
430 F.3d 245, 252-53 (5th Cir. 2005)). It is undisputed
that Deputy Scudder and Deputy Sheffield were both
acting under color of state law. Thus, the question is
whether the deputies violated Ratliff ’s constitutional
rights.
Claims under § 1983 may be brought against persons in their individual or official capacities, or against
a governmental entity. Goodman v. Harris Cnty., 571
F.3d 388, 395 (5th Cir. 2009) (citing Bd. of Cnty.
Commis of Bryan Cty. v. Brown, 520 U.S. 397, 403
(1997)). Personal-capacity suits seek to impose liability
on a governmental official as an individual, and the
official can assert the defense of qualified immunity as
a shield to liability. Goodman, 571 F.3d at 395. (internal citations omitted). Ratliff sued Deputy Scudder
and Deputy Sheffield in their personal capacities, and
they have raised the defense of qualified immunity.
The qualified immunity defense alters the summary judgment burden of proof. The plaintiff bears the
burden to rebut its applicability. Clayton v. Columbia
Cas. Co., 547 F. App’x 645, 649 (5th Cir. 2013) (internal
citation omitted). The plaintiff must show that (1) the
defendant’s conduct violated a constitutional or statutory right, and (2) the defendant’s actions were

App. 24
objectively unreasonable in the light of clearly established law at the time of the conduct in question. Id.
The defendant is entitled to summary judgment if
there is no genuine issue of material fact on either
element. Reyes v. Bridgewater, 362 Fed. App’x. 403, 406
(5th Cir. 2010). This two-prong standard is demanding
because qualified immunity protects “all but the
plainly incompetent or those who knowingly violate
the law.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(citing Malley v. Briggs, 475 U.S. 335, 341 (1986)). The
plaintiff does not need to present “absolute proof ” to
overcome summary judgment but must offer more
than “mere allegations.” Ontiveros v. City of Rosenberg,
Tex., 564 F.3d 379, 382 (5th Cir. 2009) (citing Reese v.
Anderson, 926 F.2d 494, 499 (5th Cir. 1991)).
A. Excessive Force Claim
Ratliff claims that Deputy Scudder used excessive
force in violation of Ratliff ’s constitutional rights. To
overcome qualified immunity on the excessive force
claim, a plaintiff must show “(1) an injury, (2) which
resulted directly and only from a use of force that was
clearly excessive, and (3) the excessiveness of which
was clearly unreasonable.” Poole v. City of Shreveport,
691 F.3d 624, 628 (5th Cir. 2012) (citing Ontiveros, 564
F.3d at 382). The inquiries on the second and third elements are often intertwined. Id. It is undisputed that
Ratliff suffered an injury. Thus, the Court need only
determine whether the force was clearly excessive and
clearly unreasonable.

App. 25
“[T]he excessive force inquiry is confined to
whether the officer was in danger at the moment of the
threat that resulted in the officer’s shooting.” Harris v.
Serpas, 745 F.3d 767, 772 (5th Cir. 2014) (citing Bazan
ex rel. Bazan v. Hidalgo Cnty., 246 F.3d 481, 493 (5th
Cir. 2001)). “The ‘reasonableness’ of a particular use of
force must be judged from the perspective of a reasonable officer on the scene, rather than with the 20/20
vision of hindsight.” Kisela v. Hughes, 138 S. Ct. 1148,
1152 (2018) (citing Graham v. Connor, 490 U.S. 386,
396 (1989)). The court must give an “allowance for the
fact that police officers are often forced to make splitsecond judgments—in circumstances that are tense,
uncertain, and rapidly evolving—about the amount of
force that is necessary in a particular situation.” Id. at
1152. Factors to consider include ‘“the severity of the
crime at issue, whether the suspect poses an immediate threat to the safety of the officers or others, and
whether he is actively resisting arrest or attempting to
evade arrest by flight.”‘ Deville v. Marcantel, 567 F.3d
156, 167 (5th Cir. 2009) (citing Graham, 490 U.S. at
396).
First, viewing the summary judgment evidence
from the perspective of the deputies, the Court finds
that Ratliff was accused of committing a serious crime
shortly before the shooting. Deputy Scudder and Deputy Sheffield arrived at Ratliff ’s home in response to
Vannatter’s 911 call reporting an assault. The deputies
were told that Ratliff had thrown her to the ground
and strangled her so hard that Vannatter thought she
was going to die. Ratliff argues that Vannatter’s calm

App. 26
demeanor and refusal to press charges against him
diminishes the severity of the alleged assault. Regardless of how Vannatter felt after the alleged assault, the
deputies approached Ratliff knowing that he had been
accused of committing a serious crime of assault.
Next, the Court considers Deputy Scudder’s belief
that he was in danger at the time of the shooting. A
deputy’s use of deadly force is presumptively reasonable when the deputy has reason to believe that the suspect poses a threat of serious harm to the officer or to
others. Ontiveros, 564 F.3d at 382 (citing Mace v. City
of Palestine, 333 F.3d 621, 623 (5th Cir. 2003)). Deputy
Scudder was told that Ratliff had been drinking all day,
he had assaulted Vannater, and a child remained in the
house. During the confrontation, Ratliff held a gun and
refused to drop it. D.E. 30-4, p. 2. The Court finds that
Deputy Scudder had a reasonable belief that Ratliff
posed an immediate danger.
Ratliff claims that Deputy Scudder’s testimony is
inconsistent with Deputy Sheffield and Vannater’s
testimony about whether Deputy Scudder saw Ratliff
raise his gun because Deputy Sheffield and Vannatter
testified that they did not see the gun. Ratliff also contends that Deputy Scudder fired at him almost instantaneously after Vannatter said he had a gun. However,
the audio from the video footage shows that the deputies both told Ratliff to drop the gun five times.
The Fifth Circuit has held that the direction of a
suspect’s gun is immaterial to the reasonable force
inquiry if other facts establish that the suspect was a

App. 27
threat to the officer or others. See Ballard v. Burton,
444 F.3d 391, 403 (5th Cir. 2006) (“regardless of the
direction in which [suspect] pointed the rifle just before
he was shot, a reasonable officer in these circumstances would have reason to believe that [suspect]
posed a threat of serious harm to himself or to other
officers.”); see also Buchanan v. Gulfport Police Dep’t,
530 F. App’x 307, 313–14 (5th Cir. 2013) (“[M]ultiple
warnings and [suspect’s] repeated failure to comply
with police instructions would be enough to overcome
[suspect’s] claim of excessive force for the tasing.”); see
also Reese v. Anderson, 926 F.2d 494, 501 (5th Cir. 1991)
(“[Officer] had repeatedly warned [suspect] to raise his
hands and was now faced with a situation in which another warning could (it appeared at the time) cost [his]
life . . . ”). The Court finds that Deputy Scudder had a
reasonable belief that he was in danger at the moment
of the threat that resulted in Deputy Scudder shooting
Ratliff. Thus, Deputy Scudder’s use of force was not
clearly excessive or unreasonable. Because Plaintiff
has failed to show a violation of a constitutional right,
the Court need not consider whether Deputy Scudder’s
actions were unreasonable in light of clearly established law. Plaintiff has failed to rebut Deputy Scudder’s qualified immunity claim.
Ratliff argues that Deputy Sheffield is liable for
Deputy Scudder’s use of excessive force, relying on
Haye v. Townley, 45 F.3d 914, 919 (5th Cir. 1995).
Haye states that “an officer who is present at the scene
and does not take reasonable measures to protect a
suspect from another officer’s use of excessive force

App. 28
may be liable under section 1983.” Id. (internal citations omitted). Because the Court has found that Deputy Scudder’s use of force was not clearly excessive or
unreasonable, Ratliff ’s claim against Deputy Sheffield
also fails.
CONCLUSION
For the above-stated reasons, Defendants Colby
Scudder and Raymond Sheffield’s motion for summary
judgment (D.E. 30) is GRANTED and Plaintiff Kenneth
Ratliff ’s claims are DISMISSED WITH PREJUDICE.
ORDERED this 9th day of January, 2019.
/s/ Nelva Gonzales Ramos
NELVA GONZALES RAMOS
UNITED STATES
DISTRICT JUDGE

App. 29
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
KENNETH RATLIFF,
Plaintiff,
VS.
ARANSAS COUNTY,
TEXAS, et al,
Defendants.

§
§
§
§
§
§
§
§

CIVIL ACTION NO.
2:17-CV-106

FINAL JUDGMENT
(Filed Jan. 9, 2019)
Pursuant to the Court’s Order on Motion for Summary Judgment (D.E. 53), the Court enters final judgment dismissing this action with prejudice.
ORDERED this 9th day of January, 2019.
/s/

Nelva Gonzales Ramos
NELVA GONZALES RAMOS
UNITED STATES
DISTRICT JUDGE

App. 30
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
KENNETH RATLIFF,
Plaintiff,
VS.
ARANSAS COUNTY,
TEXAS, et al,
Defendants.

§
§
§
§
§
§
§
§

CIVIL ACTION NO.
2:17-CV-106

ORDER GRANTING MOTION TO DISMISS
(Filed Sep. 27, 2017)
In this case, Plaintiff Kenneth Ratliff asserts various claims under 42 U.S.C. § 1983 against Defendants’
Aransas County (the County), Colby Scudder (Scudder), and Raymond Sheffield (Sheffield). Pending before the Court is Defendants’ motion under Rule
12(b)(6) to dismiss Plaintiff ’s municipal liability and
malicious prosecution claims (D.E. 11).1 For the reasons set forth below, Defendants’ motion is GRANTED.

1

Defendants have not moved to dismiss Plaintiffs’ excessive
force claims against Scudder and Sheffield.

App. 31
PLAINTIFF’S ALLEGATIONS2
The catalyst for the events giving rise to this lawsuit was an argument between Plaintiff and his fiancée
on the night of March 24, 2017. D.E. 1, p. 2. Plaintiff ’s
fiancée fled to a neighbor’s house on an adjacent street
and contacted law enforcement, reporting that Plaintiff had assaulted her. Id. at 2–3. Defendants Scudder
and Sheffield, deputy sheriffs with the Aransas County
Sheriff ’s Department, arrived separately at the neighbor’s house. Id. Neither officer turned on his overhead
lights or sirens while driving there. Id. The officers
parked around the corner, so neither squad car was
easily visible from Plaintiff ’s home. Id.
Plaintiff did not know that his fiancée had called
the police. Id. at 3. Fearing a confrontation with his fiancée’s family, Plaintiff armed himself with a gun and
sat on his porch. Id.
As they walked toward Plaintiff ’s porch, Scudder
and Sheffield shined a bright light in Plaintiff ’s direction, which prevented him from seeing who was arriving, particularly as it was a cloudy night and there are
no street lights near Plaintiff ’s home. Id. According to
Plaintiff, neither officer identified himself as law enforcement. Id. When the officers saw that Plaintiff was
armed, Scudder yelled “put the gun down,” and Sheffield yelled “mother f***** I’ll shoot you.” Id. Without
allowing Plaintiff time to disarm himself, Scudder fired
2

Plaintiff ’s factual allegations are taken as true under the
standard of review for a Rule 12(b)(6) motion to dismiss. Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007).

App. 32
nine shots from his service weapon, hitting Plaintiff
five times. Id. Plaintiff alleges that he never raised his
weapon or threatened the officers. Id. In connection
with the incident, Plaintiff was charged with two
counts of aggravated assault on a police officer and acquitted after a jury trial. Id.
Plaintiff asserts claims under 42 U.S.C. § 1983
against both deputies and the County. He contends
that the deputies’ actions constituted excessive force in
violation of the Fourth Amendment. Id. at 5. He alleges
that Aransas County is liable because it (1) sanctions
a custom or policy of using excessive force (and/or
failed to adopt a policy precluding the use of excessive
force); and (2) failed to adequately train its law enforcement personnel regarding the use of excessive force. Id.
at 5–6. He also claims that all Defendants are liable
for malicious prosecution. Id. at 8. Defendants seek
dismissal of the malicious prosecution claims and all
claims against Aransas County.
STANDARD OF REVIEW
The standard under Rule 12(b)(6) is devised to balance a party’s right to redress against the interests of
all parties and the court in minimizing expenditure of
time, money, and resources devoted to meritless claims.
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 558 (2007).
Rule 8(a)(2) requires only “a short and plain statement
of the claim showing that the pleader is entitled to relief.” Furthermore, “Pleadings must be construed so as
to do justice.” Fed. R. Civ. P. 8(e). The requirement that

App. 33
the pleader show that he is entitled to relief requires
“more than labels and conclusions[;] a formulaic recitation of the elements of a cause of action will not do.”
Twombly, 550 U.S. at 555 (citing Papasan v. Allain, 478
U.S. 265, 286 (1986)).
Factual allegations are required, sufficient to raise
the entitlement to relief above the level of mere speculation. Twombly, 550 U.S. at 555. Those factual allegations must then be taken as true, even if doubtful. Id.
In other words, the pleader must make allegations that
take the claim from conclusory to factual and beyond
possible to plausible. Id. at 556. The Twombly Court
stated, “[W]e do not require heightened fact pleading
of specifics, but only enough facts to state a claim to
relief that is plausible on its face.” Id. at 570.
The Supreme Court, elaborating on Twombly,
stated, “The plausibility standard is not akin to a probability requirement,’ but it asks for more than a sheer
possibility that a defendant has acted unlawfully.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). “Where a complaint pleads facts that are ‘merely consistent with’
defendant’s liability, it stops short of the line between
possibility and plausibility of entitlement to relief.’ ” Id.
at 678 (quoting Twombly, 550 U.S. at 557). Threadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice. Ashcroft,
556 U.S. at 678.

App. 34
ANALYSIS
A. Aransas County Liability
Defendants seek Aransas County’s dismissal from
this action because Plaintiff has not adequately pled
facts that support the elements of municipal liability,
as required by Rule 8(a), Twombly, and Iqbal. The elements of municipal liability (a Monell claim) are: (1) a
policymaker; (2) an official policy or custom; and (3) “a
violation of constitutional rights whose ‘moving force’
is the policy or custom.” Piotrowski v. City of Houston,
237 F.3d 567, 578 (5th Cir. 2001) (quoting Monell v.
Dep’t of Soc. Servs., 436 U.S. 658, 694 (1978)).
Plaintiff first contends that, pursuant to Leatherman v. Tarrant Cnty. Narcotics Intelligence & Coordination Unit, 507 U.S. 163 (1993), his municipal liability
claim should be considered under a lower-than-normal
pleading standard. See D.E. 23, pp. 4–6. In support, he
cites a handful of district court decisions purportedly
holding that “generic or boilerplate” allegations of municipal liability are sufficient to survive a motion to
dismiss. Id. at 7–8 (citations omitted). This Court has
previously addressed and rejected these arguments
and distinguished the same cases on which Plaintiff
now relies. See Gonzales v. Nueces Cnty., Tex., 227
F. Supp. 3d 698, 703–04 (S.D. Tex. 2017); see also Speck
v. Wiginton, 606 Fed. App’x 733, 735–36 (5th Cir. 2015)
(district court correctly analyzed motion to dismiss
§ 1983 claims under Rule 8 as interpreted by Twombly
and Iqbal). Leatherman prohibits using a heightened
pleading standard for municipal liability claims; it

App. 35
does not require a lower pleading standard for municipal liability claims. Leatherman, 507 U.S. at 168. As
such, the Court will apply the familiar Twombly/Iqbal
analysis.
Plaintiff alleges that the County “sanctioned the
custom, practice and/or policy or procedure” of excessive force, and that a “persistent, widespread practice”
of unconstitutional conduct by County agents “is so
common and well settled as to constitute a custom that
fairly represents official county policy.” D.E. 1, p. 6. In
support of this claim, Plaintiff alludes to “numerous
prior incidents of police officers using excessive force
upon citizens,” which he claims show an “unspoken policy of assaulting citizens . . . that reflects deliberate indifference to” their constitutional rights. Id. Plaintiff
contends further that, “[i]n the alternative, Defendant
County is liable under § 1983 for failure to adopt a policy precluding officers from beating/assaulting citizens
because such failure to adopt such a policy is one of
intentional choice.” Id.
Accepting Plaintiff ’s allegations as true, they
nonetheless fall short of alleging an “official custom or
policy” of excessive force as necessary to state a Monell
claim. See Piotrowski, 237 F.3d at 579. An official policy
or custom may be shown either by reference to “ ‘an actual policy, regulation or decision,’ ” or “an informal
custom that represents municipal policy.” Quinn v.
Guerrero, 863 F.3d 353, 364–65 (5th Cir. 2017) (quoting
Sanders-Burns v. City of Plano, 594 F.3d 366, 380 (5th
Cir. 2010)). “The description of a policy or custom and
its relationship to the underlying constitutional

App. 36
violation . . . cannot be conclusory; it must contain specific facts.” Spiller v. City of Tex. City, Police Dep’t, 130
F.3d 162, 167 (5th Cir. 1997).
Plaintiff has not alleged any facts regarding the
County’s formal policy relating to the use of force, but
rather contends that the use of excessive force by
County agents is so prevalent as to represent official
County policy. See D.E. 1, pp. 5–6. The only facts he alleges with any specificity, however, relate to his shooting. “ ‘[I]solated unconstitutional actions by municipal
employees will almost never trigger liability.’ ”3 Culbertson v. Lykos, 790 F.3d 608, 628 (5th Cir. 2015) (quoting Piotrowski, 237 F.3d at 578). The Complaint makes
vague reference to “numerous prior incidents of police
officers using excessive force,” but alleges no facts relating to any of these incidents. See D.E. 1, p. 6. Thus
Plaintiff has not identified a County custom or policy
as needed to state a Monell claim. See Culbertson, 790
F.3d at 629 (affirming dismissal of municipal liability
claim because allegations were “limited to the events
surrounding the plaintiffs”); see also Peterson v. City of
Fort Worth, Tex., 588 F.3d 838, 850–51 (5th Cir. 2009)
(27 alleged instances of excessive force in three years
insufficient to establish custom or policy for purposes
of municipal liability).
Plaintiff also has failed to state a claim for failure
to train. To state such a claim, Plaintiff must allege:
3

An exception, not relevant here, provides that “[a] policy
may also be shown through a single incident but only if the person
making the decision had final policy-making power.” Quinn, 863
F.3d at 365.

App. 37
“ ‘(1) inadequate training procedures; (2) that inadequate training caused the [deputies] to [use excessive
force]; and (3) the deliberate indifference of municipal
policymakers.’ ” Quinn, 863 F.3d at 365 (quoting
Pineda v. City of Houston, 291 F.3d 325, 332 (5th Cir.
2002)). “Defects in a particular training program must
be specifically alleged.” Quinn, 863 F.3d at 365. As for
the deliberate indifference requirement, “[i]t must be
‘obvious’ to the municipality that the alleged unconstitutional conduct was the ‘highly predictable consequence’ of not training or supervising its municipal
actors.” Culbertson, 790 F.3d at 625 (quoting Peterson,
588 F.3d at 849–50).
Here, Plaintiff alleges in conclusory fashion that
the County’s training program “fails to teach new police persons that beating and/or using excessive force
against citizens violates citizens’ constitutional rights
and/or in failing to recognize serious medical issues.”
D.E. 1, p. 6. He does not plead any specific defects in
the County’s training program, or allege that unconstitutional uses of force are so frequent that the County’s
maintenance of its training regimen constitutes deliberate indifference to its citizens’ constitutional rights.
Therefore, the allegations are insufficient to state a
claim for failure to train.
Accordingly, the municipal liability claims asserted against Aransas County are DISMISSED.

App. 38
B. Malicious Prosecution
Plaintiff ’s malicious prosecution claim stems from
his acquittal from two counts of aggravated assault on
a police officer. D.E. 1, p. 3. He alleges that, under the
color of state law, Defendants “maliciously charged
Plaintiff with assault on a police officer and tendered
false information concerning said charge to the prosecutor which leads [sic] that person to believe that probable cause exists when there is none.” Id. at 8. He
further contends that the Defendants “testified and
submitted information in aid of such prosecution.” Id.
Defendants seek dismissal of Plaintiff ’s malicious
prosecution claim, arguing that Castellano v. Fragozo,
352 F.3d 939 (5th Cir. 2003) (en banc) held that “there
is no viable ‘freestanding’ section 1983 claim based
solely on malicious prosecution.” D.E. 11, p. 10. The
Court agrees that Defendants are entitled to dismissal
of this claim, which is hereby DISMISSED.
However, Castellano does not foreclose any possibility of Plaintiff ever stating a constitutional claim
arising out of his criminal case. Indeed, Castellano
noted that “[t]he initiation of criminal charges without
probable cause may set in force events that run afoul
of explicit constitutional protection—the Fourth
Amendment if the accused is seized and arrested, for
example, or other constitutionally secured rights if a
case is further pursued.” Castellano, 352 F.3d at 953.
Per Castellano, to state a claim under § 1983, a plaintiff must tie the alleged deprivations to “rights locatable in constitutional text,” rather than a freestanding

App. 39
claim for malicious prosecution. Id. at 953–54; see also
id. at 955 (“The manufacturing of evidence and the
state’s use of that evidence along with perjured testimony to obtain Castellano’s wrongful conviction indisputably denied him rights secured by the Due Process
Clause.”); Cole v. Carson, 802 F.3d 752, 773 (5th Cir.
2015) (“Where police intentionally fabricate evidence
and successfully get someone falsely charged with a
felony as cover for their colleagues’ actions, and the
Fourth Amendment is unavailing, there may be a due
process violation.”), cert. granted and judgment vacated on other grounds sub nom. Hunter v. Cole, 137
S. Ct. 497 (2016).
The Court will not opine whether Plaintiff could
ever state a § 1983 claim for events relating to his prosecution. Plaintiff ’s threadbare allegation of malicious
prosecution does not identify the constitutional right
he seeks to vindicate, as is required by Castellano. As
such, his malicious prosecution claim is DISMISSED.
C. Leave to Amend
Plaintiff included in his response a generic request
for leave to amend should the Court find his pleading
deficient. D.E. 23, p. 12. He has not indicated what
facts he would plead should leave to amend be granted.
The Court will permit Plaintiff to file a renewed motion
for leave to amend, with the proposed amended pleading attached as an exhibit, on or before October 6,
2017.

App. 40
CONCLUSION
For the reasons set forth above, the Court
GRANTS the motion to dismiss (D.E. 11) and DISMISSES (1) all claims against Aransas County; and (2)
Plaintiff ’s claim for malicious prosecution. Plaintiff ’s
excessive force claims against Scudder and Sheffield
remain active.
The Court DENIES Plaintiff ’s motion for leave to
amend his complaint appearing in his response (D.E.
23, p. 12) and ORDERS that, on or before October 6,
2017, Plaintiff may file a renewed motion for leave to
amend, attaching his proposed amended pleading.
ORDERED this 27th day of September, 2017.
/s/

Nelva Gonzales Ramos
NELVA GONZALES RAMOS
UNITED STATES
DISTRICT JUDGE

App. 41
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 19-40121
-----------------------------------------------------------------------

KENNETH RATLIFF,
Plaintiff - Appellant
v.
ARANSAS COUNTY, TEXAS; COLBY SCUDDER,
Individually; RAYMOND SHEFFIELD, Individually,
Defendants - Appellees
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
-----------------------------------------------------------------------

ON PETITION FOR REHEARING EN BANC
(Filed Mar. 24, 2020)
(Opinion 1/15/2020, 5 Cir., _____, _____ F.3d _____)
Before JOLLY, SMITH, and COSTA, Circuit Judges.
PER CURIAM:
(X) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing. En Banc (FED. R. APP. P. and 5th CIR.

App. 42
R. 35), the Petition for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5th CIR.
R. 35), the Petition for Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ E. Grady Jolly
UNITED STATES
CIRCUIT JUDGE

App. 43
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
KENNETH RATLIFF

§
§
vs.
§
§
ARANSAS COUNTY, TEXAS; §
§
COLBY SCUDDER,
§
Individually; and
§
RAYMOND SHEFFIELD,
§
Individually
§

CIVIL ACTION
NO. 2:17-cv-106
JURY

PLAINTIFF’S ORIGINAL COMPLAINT
TO THE HONORABLE JUDGE OF THE UNITED
STATES DISTRICT COURT:
NOW COMS Plaintiff, Kenneth Ratliff, bringing
this his Plaintiff ’s Original Complaint, praying for
damages against the Aransas County, Texas, Colby
Scudder, Individually, and Raymond Lee Sheffield, Individually, as said Defendants, jointly and severally,
have denied Kenneth Ratliff his rights guaranteed by
the Constitution and laws of the United States of
America and the State of Texas.
JURISDICTION AND VENUE
1. This court has jurisdiction over this action pursuant to 28 U.S.C. § 1331 (federal question) and 28 U.S.C.

App. 44
§ 1343(3) (civil rights). This court also has supplemental jurisdiction pursuant to 28 U.S.C.S. § 1367 to
hear the state claims that will be set forth in this complaint. Venue is proper in the Southern District of
Texas, Corpus Christi Division, as such is the district
where the claim arose in accordance with 29 U.S.C.
§ 1391(b).
PARTIES
2. Plaintiff Kenneth Ratliff is a resident of Aransas
County, Texas.
3. Defendant Aransas County, Texas, can be served
with citation upon County Court at Law Judge Richard
Bianchi, 301 N. Live Oak St., 301 N. Live Oak St., Rockport, Texas 78382.
4. Defendant Colby Scudder (hereinafter “Scudder”)
was at all times material to this suit in the employment of the ARANSAS COUNTY SHERIFF’S DEPARTMENT.
Each of the acts complained of herein arises from the
conduct of Defendant Scudder while acting under color
of state law, and was committed during his employment with the ARANSAS COUNTY SHERIFF’S DEPARTMENT.
Defendant Scudder can be served with citation at his
place of employment, SAGINAW POLICE DEPARTMENT,
505 W. McLeroy Boulevard, Saginaw, Texas 76179.
5. Defendant Raymond Sheffield (hereinafter “Sheffield”) was at all times material to this suit the
ARANSAS COUNTY SHERIFF’S DEPARTMENT. Each of the
acts complained of herein arises from the conduct of

App. 45
Defendant Sheffield while acting under color of state
law, and was committed during his employment with
the ARANSAS COUNTY SHERIFF’S DEPARTMENT. Defendant Sheffield can be served with citation at his place of
employment, ARANSAS COUNTY SHERIFF’S DEPARTMENT,
301 N. Live Oak St., Rockport, Texas 78382.
FACTS
6. On March 24, 2017, Plaintiff and his fiancé had an
argument. Plaintiff ’s fiancé, in an attempt to have
Plaintiff removed from the house, went to a neihbor’s
house, which is on an adjacent street, and called for
assistance from the Aransas County Sheriff ’s Department.
7. Defendant Scudder wsa the first to arrive at the
Plaintiff ’s neighbor’s house and questioned Plaintiff ’s
fiancé. Thereafter, Defendant Sheffield arrived on the
scene. Neither Defendant approached the scene with
their lights and sirens on and they did not park on
Plaintiff ’s actual street. Plaintiff ’s fiancé, who was not
distraught at all, claimed that Plaintiff had physically
assaulted her and in an attempt to have Plaintiff removed from the residence, stated that Plaintiff “tried
to choke her to where she could not breathe.” Based on
these accustaions, Defendants Scudder and Sheffield
walked to Plaintiff ’s residence where Plaintiff was on
the porch. Plaintiff had previous altercations with his
fiancé and her family had made prevous threats
against him. Plaintiff had no idea that his fiancé had
called the police and was of the belief that she had

App. 46
called her family, who are well known for violent behaviors, to “sick them on him.”
8. Because of the past threats and because Plaintiff
was in fear that his fiancé’s family members were coming to his residence to hurt him, he armed himself. It
was a very dark and cloudy night and there are no
street lights by Plaintiff ’s residence. As Defendant
Scudder and Sheffield approached the property, they
did not identify themselves, and shined a bright light
directly in Plaintiff ’s eyes thereby further blinding
him. Defendant Scudder, seeing that Plaintiff had a
gun started shouting “put the gun down,” at which
time Defendant Sheffield yelled “mother fucker I’ll
shoot you.” Defendant Scudder then immediately and
without any justification for doing so, unloaded nine
shots at Plaintiff, five of which hit their mark. Defendant’s called EMS and the Halo Flight could not fly because of the cloudy and overcast weather. EMS rushed
Plaitniff to Christus Spohn Memorial Hospital in Corpus Christi, Texas. At no time did Plaintiff raise his
weapon from his side and/or threaten anyone.
9. Adding insult to injury, Defendants thereafter
charged Plaintiff with two counts of Aggravated Assault on a Police Officer, which charges Plaintiff was
acquitted by a jury of his peers.
10. Defendant Scudder’s acts complained of herein
amounts to an excessive use of force. Said excessive use
of force is objectively unreasonable as no reasonable
police officer and/or law enforcement officer given the
same or similar circumstances would have initiated

App. 47
such a brutal and life threatening attack on any person
being detained..
11. At all pertinent times, Defendants Aransas
County, Texas and/or the Aransas County Sheriff ’s Department authorized and/or ratified the wrongful and
tortious acts and/or omissions described herein.
CLAIM FOR RELIEF – §1983
12. The Civil Rights of 1871, now codified as 42
U.S.C.S. §1983 as federal law provides: “Every person
who, under color of any statute, ordinance, regulation,
custom or usage, of any state or territory or the District
of Columbia, subjects, or causes to be subjected, any
citizen of the United States or any other person within
the jurisdiction thereof to the deprivation of any laws,
privileges or immunities secured by the Constitution
and laws, shall be liable to the party injured in an action at law, suit in equity, or other proper proceeding
for redress.” 42 U.S.C.S. §1983.
13. The state action requirement for standing under
42 U.S.C.S. §1983 has more commonly been referred to
as “color of state law,” from the statute itself. Plaintiff
is informed and believes, and thereupon allege that in
committing said acts and/or omissions, Defendants
were the agent and employee of each other Defendant
and were acting within such agency and employment
and that each Defendant was acting under color of
state law.

App. 48
14. 42 U.S.C.S. § 1983 requires that the conduct complained of must have deprived the person of some privilege or immunity secured by the Constitution or laws
of the United States. As such, Plaintiff alleges that Defendants, jointly and/or severally deprived him of his
Fourth Amendment rights and those rights, privileges,
and immunities secured by the Fifth and Eighth
Amendments to the Constitution incorporated and applied to the states through the Fourteenth Amendment. Defendants violated this provision by the
following actions and/or omissions, inter alia:
a)

by using excessive force and/or deadly force in
the course of Defendants’ attempted custody/detention of Plaintiff, in violation of the
Fourth Amendment and its “reasonableness”
standard. Said actions resulted directly and
only from the use of force that was clearly excessive to the need, and the excessiveness of
which was objectively unreasonable;

b)

by failing to intervene, where such intervention would have prevented the injuries of
Plaintiff; and

c)

by falsely and maliciously charging Plaintiff
with the commission of a crime without probable cause to believe that such crime had occurred.

15. § 1983 – Excessive Force. Plaintiff pleads that
Defendants used excessive force and/or deadly force in
the course of the officer’s supposed arrest, and/or investigatory stop, and/or other “seizure” of free citizens,
such as Plaintiff, in violation of the Fourth Amendment

App. 49
and its “reasonableness” standard. Plaintiff therefore
pleads that he was unlawfully assaulted/shot by Defendants Scudder and Sheffield. Said actions resulted
directly and only from the use of force that was clearly
excessive to the need, and the excessiveness of which
was objectively unreasonable.
16. Such actions and/or omissions are “objectively unreasonable” in light of the facts and circumstances confronting Plaintiff without regard to his underlying
intent or motivation. Clearly, careful attention to the
facts and circumstances of this particular case demonstrates the unreasonableness of said actions. For these
reasons, it is objectively unreasonable for Defendants
Scudder and Sheffield to shoot (and/or failing to prevent the other from shooting) Plaintiff.
17. § 1983 – Municipal liability. It is also wellestablished that counties are liable under 42 U.S.C.S.
§ 1983 for constitutional torts that are in compliance
with the county’s customs, practices, policies or procedures. A county is liable for constitutional deprivations
visited pursuant to governmental custom even though
such custom has not received formal approval through
the body’s official decision making channels. In this
case, Defendant County is liable because it sanctioned
the custom, practice and/or policy or procedure of illegal seizures, excessive force. Defendants Scudder and
Sheffield’s actions were a customary practice and/or
policy or procedure that was sanctioned by Defendant
County out of which deprived Plaintiff of his civil
rights by statute and by both the Texas and United
States Constitutions. Liability for Defendant County is

App. 50
established under § 1983 because the assault, beating,
and severe injury to citizens, with little or no justification, is a persistent, widespread practice of County employees – namely officers/deputies – that, although not
authorized by officially adopted policy, is so common
and well settled as to constitute a custom that fairly
represents official county policy. Defendant County’s
actual or constructive knowledge of this practice, custom, and/or policy or procedure and of numerous prior
incidents of police officers using excessive force upon
citizens establishes custom and accession to that custom by the their policy makers. Defendant County’s
unspoken policy of assaulting citizens is a decision that
reflects deliberate indifference to the risk that a violation of a particular constitutional or statutory rights
will follow the decision. In the alternative, Defendant
County is liable under § 1983 for failure to adopt a policy precluding officers from beating/assaulting citizens
because such failure to adopt such a policy is one of
intentional choice.
18. Moreover, Defendant County is liable for inadequate training of police officers under § 1983. Liability
attaches to Defendant County because its failure to
train amounts to deliberate indifference to the rights
of the persons with whom these officers come in contact. In particular, Plaintiff alleges that the training
program in relation to the tasks the particular officer
must perform is inadequate in the respect that the
program fails to teach new police persons that beating
and/or using excessive force against citizens violates
citizens’ constitutional rights and/or in failing to

App. 51
recognize serious medical issues. As such, the deficiency in training actually caused Defendants Scudder
and Sheffield to violate Plaintiff ’s constitutional
rights.
19. § 1983 – Qualified Good Faith Immunity.
Qualified good faith immunity stands for the proposition that even though the civil rights of a complainant
may have been violated, if the officer engaged in the
conduct in good faith there is no liability for that individual. The standard by which an officer’s entitlement
to good faith qualified immunity is objective not subjective. Defendants Scudder and Sheffield’ actions
judged by such objective standard protects, “all but the
plainly incompetent or those who knowingly violate
the law.” The determination of objective reasonableness must be based on a version of the facts most favorable to the Plaintiff. To the extent that credibility
questions exist, a fact-finder continues to be necessary.
In the instant case, Plaintiff alleges that Defendants
Scudder and Sheffield are not entitled to claim “qualified good faith immunity.” Importantly, Defendants
Scudder and Sheffield never had a good faith belief in
their conduct because they acted in a manner demonstrating that they were plainly incompetent and knowingly violated Plaintiff ’s civil rights. When the facts
are taken in the light most favorable to the Plaintiff, it
is clear that Plaintiff was merely standing on his porch
when he was assaulted by Defendants Scudder and
Sheffield. Any reason given by Defendants Scudder
and Sheffield for their unlawful actions and/or omissions does not warrant the application of qualified good

App. 52
faith immunity because they were never in danger nor
were any other persons in the vicinity in danger of
Plaintiff. Plaintiff has asserted violations of his constitutional rights, and these rights were clearly established at the time of Defendant Scudder and Sheffield’
actions. Moreover, Defendants Scudder and Sheffield’
actions were objectively unreasonable in the sense that
they knew or reasonably should have known that the
actions taken within their authority or responsibility
would violate the constitutional rights of Plaintiff.
20. § 1983 – Malicious Prosecution. Plaintiff also
pleads a cause of action for malicious prosecution under § 1983. Defendants, acting under color of state authority, maliciously charged Plaintiff with assault on a
police officer and tendered false information concerning said charge to the prosecutor which leads that person to believe that probable cause exists when there is
none. Additionally, Plaintiff can demonstrate that the
prosecution that is central to his civil lawsuit terminated in his favor after a jury trial in which he was
acquitted by a jury of his peers. Defendants not only
caused the prosecution to be brought, but also testified
and submitted information in aid of such prosecution.
Defendants acted without probable cause and with
malice and caused Plaintiff to expend funds in hiring
an attorney and further caused Plaintiff to suffer mental anguish damages.

App. 53
DAMAGES
21. As a result of the foregoing unlawful and wrongful acts of Defendants, jointly and severally, Plaintiff
has been caused to suffer general damages which include but are not limited to the following: both physical
and emotional injury, including but not limited to –
pain and suffering, emotional and mental distress, and
personal humiliation and shock, along with severe
emotional distress.
22. Said injuries have caused Plaintiff to incur special damages which include but are not limited to: past
and future medical expenses, past and future lost income, lost wages and the occurrence of attorneys’ fees
associated with criminal charges.
23. Pursuant to the Civil Rights Attorney’s Fees
Award Act, 42 U.S.C.S. § 1988, a prevailing party in a
§ 1983 case is entitled to recover his attorney’s fees.
Hence, Plaintiff further prays for all costs and attorney
fees.
24. In addition, Plaintiff prays for punitive damages
against the individual Defendants. Punitive damages
are designed to punish and deter persons such as Defendants who have engaged in egregious wrongdoing.
Punitive damages may be assessed under § 1983 when
a Defendant’s conduct is shown to be motivated by evil
motive or intent, or when it involves reckless or callous
indifference to the federally-protected rights of others.
While municipal defendants are absolutely immune
from § 1983 awards of punitive damages, such damages may be awarded against a public employee or

App. 54
official in their individual capacity. Therefore, Plaintiff
alleges and prays for punitive damages against the
individual Defendants, as such Defendants actually
knew that their conduct was unconstitutional, and/or
was callously indifferent to its legality.
WHEREFORE PREMISES CONSIDERED, Plaintiff prays that upon trial of the merits, he recover compensatory damages against Defendants, jointly and
severally; that Plaintiff also recover punitive damages
against the individual Defendant in an amount to
punish and/or deter and to make an example of that
Defendants in order to prevent similar future conduct;
and, that Plaintiff recover against each Defendant all
reasonable and necessary attorney’s fees, court costs
and expenses in regards to the present suit in litigation. Moreover, Plaintiff prays for all prejudgement
and post judgement interest that can be assessed
against the Defendants in the event of recovery; and
that Plaintiff recovers against each Defendant any and
all other general or specific relief to which he may
prove himself justly entitled.
Respectfully submitted,
GALE LAW GROUP, PLLC
711 N. Carancahua St., Suite 514
Corpus Christi, Texas 78401
Mailing Address:
P.O. Box 2591
Corpus Christi, Texas 78403
Telephone: (361)808-4444
Telecopier: (361)242-4139

App. 55
By: /s/ Christopher J. Gale
Christopher J. Gale
Chris@GaleLawGroup.com
Texas Bar No. 00793766
Southern District Bar No. 27257
Attorney-in-Charge for Plaintiff
/s/ Amie Augenstein
Amie Augenstein
Amie@GaleLawGroup.com
Texas Bar No. 24085184
Southern District Bar No. 2236723
Attorney for Plaintiff
Demand for Jury Trial
Plaintiff hereby demands trial by jury pursuant to
Fed.R.Civ.P. 8(b).

